IN THE
SUPREME COURT OF THE UNITED STATES
)
CLEMENTE AVELINO PEREIDA,
)
Petitioner, )
)
v.
)
WILLIAM P. BARR, ATTORNEY GENERAL,
)
Respondent. )
)

No. 19-438
On Writ of Certiorari to the U.S.
Court of Appeals for the Eighth
Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the “Brief Amicus
Curiae of Immigration Reform Law Institute in Support of Respondent” filed on
behalf of the Immigration Reform Law Institute in the above-captioned matter
contains 1,998 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 4, 2020.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

